APPENDIX TABLE OF CONTENTS
Opinion of the Court of Criminal Appeals, State of
Oklahoma (April 29, 2021) ................................. 1a
Amended Order of the District Court of Craig
County, State of Oklahoma, with Findings of
Fact and Conclusions of Law
(March 5, 2021) ................................................. 14a
Order of the Court of Criminal Appeals, State of
Oklahoma, Directing Response or Compliance
with Remand Order (February 24, 2021) ........ 24a
Order of the District Court of Craig County,
State of Oklahoma, with Findings of Fact and
Conclusions of Law (January 25, 2021) ........... 27a
Order of the Court of Criminal Appeals, State of
Oklahoma, Remanding for Evidentiary Hearing
(August 19, 2020) ............................................. 30a

App.1a
OPINION OF THE COURT OF CRIMINAL
APPEALS, STATE OF OKLAHOMA
(APRIL 29, 2021)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
SHAWN LEE MCDANIEL,
Appellant,
v.
THE STATE OF OKLAHOMA,
Appellee.
________________________
Case No. F-2017-357
Before: Dana KUEHN, Presiding Judge,
Scott ROWLAND, Vice Presiding Judge,
Gary L. LUMPKIN, Judge, David B. LEWIS, Judge,
Robert L. HUDSON, Judge.
OPINION
ROWLAND, VICE PRESIDING JUDGE:
Appellant Shawn Lee McDaniel appeals his conviction in Muskogee County District Court, Case No.
CF-2015-249, for First Degree Murder, in violation of
21 O.S.Supp.2012, § 701.7(A). The Honorable Thomas
H. Alford, District Judge, presided over McDaniel’s
jury trial and sentenced him, in accordance with the
jury’s verdict, to life imprisonment. McDaniel raises

App.2a
seven issues for review. His jurisdiction challenge,
contesting the State’s jurisdiction to prosecute him,
requires relief. We address only that claim and find
his other claims are moot.
This appeal turns on whether the murder victim
was an Indian as defined by federal law, and whether
the alleged crime was committed within Indian country
as that term is defined by federal law. Because the
answer to both questions is yes, federal law grants
exclusive criminal jurisdiction to the federal government.
1. Controlling Law: McGirt v. Oklahoma
In McGirt v. Oklahoma, 591 U.S. ___, 140 S.Ct.
2452 (2020), the Supreme Court held that land set
aside for the Muscogee-Creek Nation in the 1800’s
was intended by Congress to be an Indian reservation,
and that this reservation remains in existence today
for purposes of federal criminal law because Congress
has never explicitly disestablished it. Although the
case now before us involves the lands of the Cherokee
Nation, McGirt’s reasoning is nevertheless controlling.
2. Jurisdiction
Federal and tribal governments, not the State of
Oklahoma, have jurisdiction to prosecute crimes
committed by or against Indians on an Indian reservation. 18 U.S.C. §§ 1152, 1153; McGirt, 140 S.Ct. at
2479-80. The charge of first degree murder filed against
McDaniel in this case fits squarely within the crimes
subject to exclusive federal jurisdiction. See State v.
Klindt, 1989 OK CR 75, 3, 782 P.2d 401, 403 (“[T]he
State of Oklahoma does not have jurisdiction over crimes
committed by or against an Indian in Indian Country.”)

App.3a
3. Two Questions Upon Remand
A. McDaniel’s Status as Indian
After McGirt was decided, this Court, on August
19, 2020, remanded this case to the District Court of
Muskogee County for an evidentiary hearing. We
directed the District Court to make findings of fact
and conclusions of law on two issues: (a) the victim’s
status as an Indian; and (b) whether the crime occurred
in Indian Country, namely within the boundaries of
the Cherokee Nation Reservation. Our Order provided
that, if the parties agreed as to what the evidence
would show with regard to the questions presented,
the parties could enter into a written stipulation setting
forth those facts, and no hearing would be necessary.
On September 29, 2020, the parties appeared for
an evidentiary hearing before the Honorable Bret Smith,
District Judge. The District Court admitted the parties’
joint stipulation, acknowledged the presence of the
Cherokee Nation’s deputy attorney general appearing
as amicus curiae, and accepted the amicus brief filed
on behalf of the tribe. The joint stipulation provided
that: (1) the charged crime occurred within the historic
boundaries of the Cherokee Nation; (2) the victim has
some Indian blood; (3) the victim was a recognized
citizen of the Cherokee Nation on the date of his death;
and (4) the Cherokee Nation is a federally recognized
tribe.
On March 12, 2021, the District Court filed its
Second Amended Findings of Fact and Conclusions of
Law. The District Court found the facts recited above
in accordance with the joint stipulation. The District
Court correctly concluded that, on the date of his death,

App.4a
the victim, Billy Fools, was an Indian under federal
law.1 We adopt this ruling.
B. Whether the Crime Was
Committed in Indian Country
As to the second question on remand, whether the
crime was committed in Indian country, the stipulation
of the parties was less dispositive. They acknowledged
only that the charged crime occurred within the
historical geographic area of the Cherokee Nation as
designated by various treaties. At the evidentiary
hearing, the State took no position on whether Congress
established a reservation for the Cherokee Nation or
whether Congress ever erased those boundaries and
disestablished the reservation. Based on the parties’
stipulation and the materials submitted by McDaniel
and the Cherokee Nation at the evidentiary hearing,
the District Court concluded that Congress established
a reservation for the Cherokee Nation, that the charged
crime against McDaniel occurred within the boundaries
of that reservation, and that Congress never disestablished the Cherokee Nation Reservation. We agree.
See Spears v. State, 2021 OK CR 7, ¶¶ 11-15, ___ P.3d
___ (holding Congress established a reservation for
the Cherokee Nation and it remains intact because
Congress has not disestablished it). Hence, for purposes of federal criminal law, the land upon which the

1 In its Supplemental Brief after remand, the State “accepts” the
District Court’s findings and conclusions concerning the victim’s
Indian status.

App.5a
parties agree McDaniel committed the crime is Indian
country.2
While the State concedes that the victim was an
Indian under federal law and that the charged crime
occurred within Indian country, the State maintains
that federal jurisdiction over crimes committed against
Indians in Indian Country pursuant to 18 U.S.C.
§§ 1152 is not exclusive. The State argues in its Supplemental Brief that Oklahoma has concurrent jurisdiction
with federal courts over crimes committed by non-Indian
defendants against Indian victims in Indian country.
We rejected the State’s same argument regarding concurrent jurisdiction in Bosse v. State, 2021 OK CR 3, ¶
23-28, ___ P.3d ___. Under the analysis in McGirt, we
must therefore hold that the District Court of Muskogee
County was without jurisdiction to prosecute McDaniel.
Accordingly, we grant McDaniel’s Proposition 1.
DECISION
The Judgment and Sentence of the district court
is VACATED and the matter is REMANDED WITH
INSTRUCTIONS TO DISMISS. Pursuant to Rule
3.15, Rules of the Oklahoma Court of Criminal Appeals,
Title 22, Ch. 18, App. (2021), the MANDATE is
ORDERED to issue in twenty (20) days from the
delivery and filing of this decision.

2 In its Supplemental Brief after remand, the State “accepts” the
District Court’s findings and conclusions concerning reservation
status of the crime’s situs.

App.6a
AN APPEAL FROM THE DISTRICT COURT OF
MUSKOGEE COUNTY, THE HONORABLE
BRET SMITH, DISTRICT JUDGE
APPEARANCES AT TRIAL
Roger Hilfiger
Attorney at Law
620 West Broadway
Muskogee, OK 74401
Counsel for Defendant
Tim King
Asst. District Attorney
Muskogee CO. Courthouse
220 State St., Suite 1
Muskogee, OK 74401
Counsel for State
APPEARANCES ON APPEAL
James H. Lockard
Deputy Division Chief
Homicide Direct
Appeals Division
Oklahoma Indigent Defense System
P.O. Box 926
Norman, OK 73070
Counsel for Appellant
Mike Hunter
Attorney General of Oklahoma
Matthew D. Haire
Ashley L. Willis
Asst. Attorney General
313 N.E. 21st Street
Oklahoma City, OK 73105
Counsel for Appellee

App.7a
APPEARANCES ON REMAND
Orvil Loge
District Attorney
Muskogee CO. Courthouse
220 State St., Suite 1
Muskogee, OK 74401
Counsel for State
Mike Hunter
Attorney General of Oklahoma
Julie Pittman
Randall Young
Assistant Attorneys General
313 N.E. 21st Street
Oklahoma City, OK 73105
Counsel for State
James H. Lockard
Alex Richard
Homicide Direct Appeals Division
Oklahoma Indigent Defense System
P.O. Box 926
Norman, OK 73070
Counsel for Defendant/Appellant
Roger Hilfiger
Attorney at Law
620 West Broadway
Muskogee, OK 74401
Counsel for Defendant/Appellant
Sara Hill
Attorney General
Chrissi Nimmo
Deputy Attorney General
Paiten Taylor-Gualls
Asst. Attorney General

App.8a
Cherokee Nation
17675 S. Muskogee Ave.
Tahlequah, OK 74465-1533
Amicus Curiae
Opinion by: Rowland, V.P.J.
Kuehn, P.J.: Concur
Lumpkin, J.: Concur in Result
Lewis, J.: Specially Concur
Hudson, J.: Concur in Result

App.9a
LUMPKIN, JUDGE
CONCURRING IN RESULTS:
Bound by my oath and the Federal-State relationships dictated by the U.S. Constitution, I must at
a minimum concur in the results of this opinion. While
our nation’s judicial structure requires me to apply
the majority opinion in the 5-4 decision of the U.S.
Supreme Court in McGirt v. Oklahoma, ___ U.S. ___,
140 S. Ct. 2452 (2020), I do so reluctantly. Upon the first
reading of the majority opinion in McGirt, I initially
formed the belief that it was a result in search of an
opinion to support it. Then upon reading the dissents
by Chief Justice Roberts and Justice Thomas, I was
forced to conclude the Majority had totally failed to follow
the Court’s own precedents, but had cherry picked
statutes and treaties, without giving historical context
to them. The Majority then proceeded to do what an
average citizen who had been fully informed of the law
and facts as set out in the dissents would view as an
exercise of raw judicial power to reach a decision
which contravened not only the history leading to the
disestablishment of the Indian reservations in Oklahoma, but also willfully disregarded and failed to apply
the Court’s own precedents to the issue at hand.
My quandary is one of ethics and morality. One
of the first things I was taught when I began my service
in the Marine Corps was that I had a duty to follow
lawful orders, and that same duty required me to resist
unlawful orders. Chief Justice Roberts’s scholarly and
judicially penned dissent, actually following the Court’s
precedents and required analysis, vividly reveals the
failure of the majority opinion to follow the rule of law
and apply over a century of precedent and history, and

App.10a
to accept the fact that no Indian reservations remain
in the State of Oklahoma.1 The result seems to be some
form of “social justice” created out of whole cloth rather
than a continuation of the solid precedents the Court
has established over the last 100 years or more.
The question I see presented is should I blindly
follow and apply the majority opinion or do I join with
Chief Justice Roberts and the dissenters in McGirt
1 Senator Elmer Thomas, D-Oklahoma, was a member of the
Senate Committee on Indian Affairs. After hearing the Commissioner’s speech regarding the Indian Reorganization Act (IRA) in
1934, Senator Thomas opined as follows:
I can hardly see where it (the IRA) could operate in a
State like mine where the Indians are all scattered
out among the whites and they have no reservation,
and they could not get them into a community without
you would go and buy land and put them on it. Then
they would be surrounded very likely with thickly
populated white sections with whom they would trade
and associate. I just cannot get through my mind how
this bill can possibly be made to operate in a State of
thickly-settled population. (emphasis added).
John Collier, Commissioner of Indian Affairs, Memorandum of
Explanation (regarding S. 2755), p. 145, hearing before the
United States Senate Committee on Indian Affairs, February 27,
1934. Senator Morris Sheppard, D-Texas, also on the Senate
Committee on Indian Affairs, stated in response to the Commissioner’s speech that in Oklahoma, he did not think “we could look
forward to building up huge reservations such as we have granted
to the Indians in the past.” Id. at 157. In 1940, in the Foreword
to Felix S. Cohen, Handbook of Federal Indian Law (1942),
Secretary of the Interior Harold Ickes wrote in support of the
IRA, “[t]he continued application of the allotment laws, under
which Indian wards have lost more than two-thirds of their
reservation lands, while the costs of Federal administration of
these lands have steadily mounted, must be terminated.” (emphasis
added).

App.11a
and recognize “the emperor has no clothes” as to the
adherence to following the rule of law in the application of the McGirt decision?
My oath and adherence to the Federal-State relationship under the U.S. Constitution mandate that I
fulfill my duties and apply the edict of the majority
opinion in McGirt. However, I am not required to do
so blindly and without noting the flaws of the opinion
as set out in the dissents. Chief Justice Roberts and
Justice Thomas eloquently show the Majority’s mischaracterization of Congress’s actions and history
with the Indian reservations. Their dissents further
demonstrate that at the time of Oklahoma Statehood
in 1907, all parties accepted the fact that Indian reservations in the state had been disestablished and no
longer existed. I take this position to adhere to my
oath as a judge and lawyer without any disrespect to
our Federal-State structure. I simply believe that when
reasonable minds differ they must both be reviewing
the totality of the law and facts.

App.12a
HUDSON, J., CONCUR IN RESULTS:
Today’s decision applies McGirt u. Oklahoma, 140
S. Ct. 2452 (2020) to the facts of this case and dismisses
convictions from Johnston County for first degree
burglary, aggravated assault and battery, and three
counts of assault with a dangerous weapon. I concur
in the results of the majority’s opinion based on the
stipulations below concerning the Indian status of
Appellant and the location of these crimes within the
historic boundaries of the Chickasaw Reservation.
Under McGirt, the State cannot prosecute Appellant
because of his Indian status and the occurrence of
these crimes within Indian Country as defined by federal law. I therefore as a matter of stare decisis fully
concur in today’s decision.
I disagree, however, with the majority’s definitive
conclusion that Congress never disestablished the
Chickasaw Reservation. Here, the State took no
position below on whether the Chickasaw Nation
has, or had, a reservation. The State’s tactic of passivity has created a legal void in this Court’s ability to
adjudicate properly the facts underlying Appellant’s
argument. This Court is left with only the trial court’s
conclusions of law to review for an abuse of discretion.
We should find no abuse of discretion based on the
record evidence presented. But we should not conclude
definitively that the Chickasaw Nation was never
disestablished based on this record.
Finally, I maintain my previously expressed views
on the significance of McGirt, its far-reaching impact
on the criminal justice system in Oklahoma and the
need for a practical solution by Congress. See Bosse v.
State, 2021 OK CR 3, ___ P.3d ___ (Hudson, J., Concur

App.13a
in Results); Hogner v. State, 2021 OK CR 4, ___ P.3d
___ (Hudson, J., Specially Concurs); and Krafft v.
State, No. F-2018-340 (Okl. Cr., Feb. 25, 2021) (Hudson,
J., Specially Concurs) (unpublished).

App.14a

AMENDED ORDER OF THE DISTRICT COURT
OF CRAIG COUNTY, STATE OF OKLAHOMA,
WITH FINDINGS OF FACT AND
CONCLUSIONS OF LAW
(MARCH 5, 2021)
IN THE DISTRICT COURT IN AND FOR
CRAIG COUNTY, STATE OF OKLAHOMA
________________________
SHAWN LEE MCDANIEL,
Defendant-Appellant,
v.
THE STATE OF OKLAHOMA,
Plaintiff-Appellee.
________________________
OCCA Case No. F-2017-357
Muskogee County Case No. CF-2015-249
Before: Bret A. SMITH, District Judge.
AMENDED ORDER
NOW on this 5th day of March, 2021, the Court
amends and supplements the previous order dated
January, 25th 2021. On September 29, 2020 an evidentiary hearing was held wherein the State appeared
through the Oklahoma Attorney General’s Office by
Randall Young and Julie Pittman and through the
Muskogee County District Attorney’s Office by Orvil
Loge. Shawn Lee McDaniel appeared through the

App.15a
Oklahoma Indigent Defense System by James Lockard
and Alex Richard and private counsel Roger Hilfiger.1
Additionally, the Cherokee Nation appeared as amici
through Chrissi Nimmo. After considering the argument of parties, reviewing the admitted exhibits, and
accepting the stipulations of the parties, this court
makes the following findings of fact:
FINDINGS OF FACT
1. The Indian status of Billy Fools, the Defendant/
Appellant’ s victim is, by stipulation of the parties, one
quarter (1/4) Cherokee blood. Further, Billy Fools was
a registered citizen of the Cherokee Nation at the time
of the crime.
2. This Court finds, by stipulation of the parties,
that the Cherokee Nation is a federally recognized
tribe.
3. This Court finds, by stipulation of the parties,
that the crime committed by Shawn Lee McDaniel
occurred at 25510 South 110th Street, in Porum,
Oklahoma.
4. This Court finds, by stipulation of the parties,
that 52210 South 110th Street, in Porum Oklahoma,
is within the geographic area set out in the Treaty of
the Cherokee, December 29, 1835, 7 Stat. 478, as
modified under the Treaty of July 19, 1866, 14 Stat.
799, and as modified under the 1891 agreement ratified
by Act of March 3, 1893, 27 Stat. 612.

1 Mr. McDaniel was not present at the evidentiary hearing.

App.16a
CONCLUSIONS OF LAW
I.

Defendants/Appellant’s Victim’s Status as an
Indian.

I. The State of Oklahoma and the Defendant/
Appellant stipulated to the Defendant/Appellant’ s
victim’s (Billy Fools) Indian Status by virtue of his
tribal membership and proof of blood quantum. Based
on the stipulation provided, the Court specifically finds
Billy Fools, the victim, is one quarter (1/4) Cherokee
Indian and is recognized as such by the Cherokee
Nation. Thus, the Defendant/Appellants’ victim is an
Indian.
II.

Was the Crime Situs in Indian Country.

The State of Oklahoma and Defendant/Appellant
stipulated that the crime occurred within the historical
boundaries of the Cherokee Nation. The State takes
no position as to the facts underlying the existence,
now or historically, of the alleged Cherokee Nation
Reservation. In regard to whether Congress established
a reservation for the Cherokee Nation, the Court finds
as follows:
1.

The Cherokee Nation is a federally recognized
Indian tribe. 84 C.F.R. § 1200 (2019).

2.

The current boundaries of the Cherokee Nation
encompass lands in a fourteen-county area
within the borders of the State of Oklahoma,
including all of Adair, Cherokee, Craig,
Nowata, Sequoyah, and Washington Counties,
and portions of Delaware, Mayes, McIntosh,

App.17a
Muskogee, Ottawa, Rogers, Tulsa, and Wagoner Counties as indicated in Combined Hearing
Exhibit 1, Tab 3.
3.

The Cherokee Nation’s treaties are to be
considered on their own terms, in determining
reservation status. McGirt v. Oklahoma, 140
S. Ct. 2452 (2020).

4.

In McGirt, the United States Supreme Court
noted that Creek treaties promised a “permanent home” that would be “forever set apart,”
and assured a right to self-government on
lands that would lie outside both the legal
jurisdiction and geographic boundaries of any
state. McGirt, 140 S.Ct. at 2461-62. As such,
the Supreme Court found that, “Under any
definition, this was a [Creek] reservation.”
McGirt, 140 S.Ct. at 2461.

5.

The Cherokee treaties were negotiated and
finalized during the same period of time as
the Creek treaties, contained similar provisions
that promised a permanent home that would
be forever set apart, and assured a right to
self-government on lands that would lie outside both the legal jurisdiction and geographic
boundaries of any state.

6.

The 1833 Cherokee treaty “solemnly pledged”
a “guarantee” of seven million acres to the
Cherokees on new lands in the West “forever.”
Treaty with the Western Cherokee, Preamble,
Feb. 14, 1833, 7 Stat. 414.

7.

The 1833 Cherokee treaty used precise geographic terms to describe the boundaries of
the new Cherokee lands, and provided that a

App.18a
patent would issue as soon as reasonably
practical. Art. 1, 7 Stat. 414.
8.

The 1835 Cherokee treaty was ratified two
years later “with a view to re-unite their
people in one body and to secure to them a
permanent home for themselves and their
posterity,” in what became known as Indian
Territory, “without the territorial limits of
the state sovereignties,” and “where they
could establish and enjoy a government of
their choice, and perpetuate such a state of
society as might be consonant with their
views, habits and condition.” Treaty with the
Cherokee, Dec. 29, 1835, 7 Stat. 478 and
Holden v. Joy, 84 U.S. 211, 237-38 (1872).

9.

Like the Creek treaty promises, the United
States’ treaty promises to Cherokee Nation
“weren’t made gratuitously.” McGirt, 140 S.Ct.
at 2460. Under the 1835 treaty, Cherokee
Nation “cede[d], relinquish[ed], and convey[ed]” all its aboriginal lands east of the
Mississippi River to the United States. Arts.
1, 7 Stat. 478. In return, the United States
agreed to convey to Cherokee Nation, by fee
patent, seven million acres in Indian Territory
within the same boundaries as described in
the 1833 treaty, plus “a perpetual outlet west.”
Art. 2, 7 Stat. 478.

10. The 1835 Cherokee treaty described the United
States’ conveyance to the Cherokee Nation of
the new lands in Indian Territory as a cession;
required Cherokee removal to the new lands;
covenanted that none of the new lands would
be “included within the territorial limits or

App.19a
jurisdiction of any State or Territory” without
tribal consent; and secured “to the Cherokee
nation the right by their national councils to
make and carry into effect all such laws as
they may deem necessary for the government . . . within their own country,” so long
as they were consistent with the Constitution and laws enacted by Congress regulating
trade with Indians. Arts. 1, 5, 8, 19, 7 Stat.
478.
11. On December 31, 1838, President Van Buren
executed a fee patent to the Cherokee Nation
for the new lands in Indian Territory. Cherokee
Nation v. Hitchcock, 187 U.S. 294, 297 (1902).
The title was held by the Cherokee Nation
“for the common use and equal benefit of all
the members.” Cherokee Nation v. Hitchcock,
187 U.S. at 307; see also Cherokee Nation v.
Journeycake, 155 U.S. 196, 207 (1894). Fee title
is not inherently incompatible with reservation status, and establishment of a reservation
does not require a “particular form of words.”
McGirt, 140 S.Ct. at 2475, citing Maxey v.
Wright, 54 S.W. 807, 810 (Indian Terr. 1900)
and Minnesota v. Hitchcock, 185 U.S. 373,
390 (1902).
12. The 1846 Cherokee treaty required federal
issuance of a deed to the Cherokee Nation for
lands it occupied, including the “purchased”
800,000-acre tract in Kansas (known as the
Neutral Lands) and the “outlet west.” Treaty
with the Cherokee, Aug. 6, 1846, art. 1, 9 Stat.
871.

App.20a
13. The 1866 Cherokee treaty resulted in Cherokee
cessions of lands in Kansas and the Cherokee
Outlet and required the United States, at its
own expense, to cause the Cherokee boundaries
to be marked “by permanent and conspicuous
monuments, by two commissioners, one of
whom shall be designated by the Cherokee
national council.” Treaty with the Cherokee,
July 19, 1866, art. 21, 14 Stat. 799.
14. The 1866 Cherokee treaty “re-affirmed and
declared to be in full force” all previous
treaty provisions “not inconsistent with the
provisions of the 1866 treaty, and provided
that nothing in the 1866 treaty “shall be
construed as an acknowledgment by the
United States, or as a relinquishment by
Cherokee Nation of any claims or demands
under the guarantees of former treaties,”
except as expressly provided in the 1866
treaty. Art. 31, 14 Stat. 799.
15. Under McGirt, the “most authoritative evidence of [a tribe’s] relationship to the land
. . . lies in the treaties and statutes that
promised the land to the Tribe in the first
place.” McGirt, 140 S.Ct. at 2475-76.

As a result of the treaty provisions referenced above
and related federal statutes, this Court hereby finds
Congress did establish a Cherokee reservation as
required under the analysis set out in McGirt v.
Oklahoma, 591 U.S. ___ (2020), 140 S. Ct. 2452 (2020).
In regard to whether Congress specifically erased
the boundaries or disestablished the Cherokee Reservation, the Court finds as follows:

App.21a
1.

The current boundaries, indicated on the map
found at Tab 3 of the Combined Hearing
Exhibit 1, are the established boundaries of
the Cherokee Reservation by the 1833 and
1835 Cherokee treaties, diminished only by
two express cessions.

2.

First, the 1866 treaty expressly ceded the
Nation’s patented lands in Kansas, consisting
of a two-and-one-half mile-wide tract known
as the Cherokee Strip and the 800,000-acre
Neutral Lands, to the United States. Art. 17,
14 Stat. 799.

3.

Second, the 1866 treaty authorized settlement
of other tribes in a portion of the Nation’s land
west of its current western boundary (within
the area known as the Cherokee Outlet); and
required payment for those lands, stating
that the Cherokee Nation would “retain the
right of possession of and jurisdiction over
all of said country . . . until thus sold and
occupied, after which their jurisdiction and
right of possession to terminate forever as to
each of said districts thus sold and occupied.”
Art. 16, 14 Stat. 799.

4.

The Cherokee Outlet cession was finalized by
an 1891 agreement ratified by Congress in
1893 (1891 Agreement). Act of Mar. 3, 1893,
Ch. 209, § 10, 27 Stat. 612, 640-43.

5.

The 1891 Agreement provided that the Cherokee Nation “shall cede and relinquish all
its title, claim, and interest of every kind
and character in and to that part of the
Indian Territory” encompassing a strip of

App.22a
land bounded by Kansas on the North and
the Creek Nation on the south, and located
between the ninety-sixth degree west longitude and the one hundredth degree west
longitude (i.e., the Cherokee Outlet). See
United States v. Cherokee Nation, 202 U.S.
101, 105-06 (1906).
6.

The 1893 federal statute that ratified the 1891
Agreement required payment of a sum certain
to the Cherokee Nation and provided that,
upon payment, the ceded lands would “become
and be taken to be, and treated as, a part
of the public domain,” except for such lands
allotted under the Agreement to certain described Cherokees farming the lands. 27 Stat.
612, 640-43; United States v. Cherokee Nation,
202 U.S. at 112.

7.

Cherokee Nation did not cede or restore any
other portion of the Cherokee Reservation to
the public domain in the 1891 Agreement.
No evidence was presented that any other
cession has occurred since that time.

8.

The original 1839 Cherokee Constitution
established the boundaries as described in the
1833 treaty, and the Constitution as amended
in 1866 recognized those same boundaries,
“subject to such modification as may be made
necessary” by the 1866 treaty. 1839 Cherokee
Constitution, art. I, § 1, and Nov. 26, 1866
amendment to art. I, § 1, reprinted in Volume
I of West’s Cherokee Nation Code Annotated
(1993 ed.).

App.23a
9.

Cherokee Nation’s most recent Constitution,
a 1999 revision of its 1975 Constitution, was
ratified by Cherokee citizens in 2003, and
provides: “The boundaries of the Cherokee
Nation territory shall be those described by
the patents of 1838 and 1846 diminished
only by the Treaty of July 19, 1866, and the
Act of Mar. 3, 1893.” 1999 Cherokee Constitution, art. 2.

During oral argument and in selected portions of
their brief, the State argues the burden of proof
regarding whether Congress specifically erased the
boundaries or disestablished the reservation rests
solely with the Defendant/Appellant. The State also
made it clear through argument and briefing the State
of Oklahoma “takes no position as to the facts underlying
the existence, now or historically, of the alleged
Cherokee Nation Reservation. No evidence or argument
was presented by the State specifically regarding
disestablishment or boundary erasure of the Cherokee
Reservation.
No evidence was presented that to the Court that
Congress erased or disestablished the boundaries of
the Cherokee Nation. The State of Oklahoma has no
jurisdiction in this matter because the Defendant/
Appellant’s victim, Billy Fools, is an Indian and the
crime occurred in the Cherokee Nation.
Signed this 5th day of March, 2021.
/s/ Honorable Bret A. Smith
District Court Judge

App.24a
ORDER OF THE COURT OF CRIMINAL
APPEALS, STATE OF OKLAHOMA,
DIRECTING RESPONSE OR COMPLIANCE
WITH REMAND ORDER
(FEBRUARY 24, 2021)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
SHAWN LEE MCDANIEL,
Appellant,
v.
THE STATE OF OKLAHOMA,
Appellee.
________________________
Case No. F-2017-357
Before: Dana KUEHN, Presiding Judge.
ORDER DIRECTING RESPONSE OR
COMPLIANCE WITH REMAND ORDER
After the Supreme Court decided McGirt v.
Oklahoma, 591 U.S. ___, 140 S.Ct. 2452 (2020), this
Court, on August 19, 2020, remanded this case to the
District Court of Muskogee County for an evidentiary
hearing to be held within sixty days from the date of
the Remand Order. We directed the District Court to
make findings of fact and conclusions of law on two
issues: (a) the victim’s status as an Indian; and (b)

App.25a
whether the crime occurred in Indian Country, namely
within the boundaries of the Cherokee Nation Reservation. We ordered the District Court to issue written
Findings of Fact and Conclusions of Law within twenty
days after the filing of the transcripts in the District
Court and further ordered the District Court Clerk to
transmit the record of the evidentiary hearing, the
District Court’s Findings of Fact and Conclusions of
Law, and any other materials made a part of the
record to this Court’s Clerk within five days after the
District Court filed its Findings of Fact and Conclusions of Law.
The appellate record shows our Court Clerk filed
the transcript from the evidentiary hearing held September 29, 2020, Defendant’s exhibits, and an amicus
exhibit on December 14, 2020. Appellant filed his
Supplemental Brief on January 4, 2021. The State of
Oklahoma filed a Notice of Incomplete Record on
January 8, 2021, claiming the record was incomplete
because the District Court of Muskogee County had
yet to file its Findings of Fact and Conclusions of Law
in compliance with this Court’s Remand Order. On
January 15, 2021, we ordered the District Court to
respond and either forward its Findings of Fact and
Conclusions of Law or prepare and file them within
ten days of the Order.
The District Court entered an Order on January
25, 2021 with only Findings of Fact based upon the
parties’ stipulations. The Order contained no Conclusions of Law and failed to address whether Congress
established a reservation for the Cherokee Nation and,
if so, whether Congress erased those boundaries and
disestablished the reservation. The State subsequently
filed a Second Notice of Incomplete Record.

App.26a
THEREFORE, the District Court of Muskogee
County, the Honorable Bret Smith, or his designated
representative, is directed to respond to the State’s
incomplete record claim, namely that no Conclusions
of Law have been issued in the above-referenced matter
in accordance with this Court’s Remand Order of August
19, 2020. If the District Court has already complied
with this Court’s Remand Order and issued written
Conclusions of Law, a certified copy of those Conclusions shall be forwarded to this Court. If written Conclusions have not yet been issued, the District Court
shall file them within ten (10) days from the date of
this order. Upon the filing of the Conclusions of Law,
the District Court Clerk is directed to supplement the
record as directed in our Remand Order of August 19,
2020. All other deadlines in the Remand Order remain
in effect.
The Clerk of this Court is directed to transmit a
copy of this order to the Court Clerk of Muskogee
County, the District Court of Muskogee County, the
Honorable Bret Smith, District Judge, Appellant, and
counsel of record.
IT IS SO ORDERED.
WITNESS MY HAND AND THE SEAL OF
THIS COURT this 24th day of February, 2021.
/s/ Dana Kuehn
Presiding Judge
ATTEST:
/s/ John D. Hadden
Clerk

App.27a
ORDER OF THE DISTRICT COURT OF
CRAIG COUNTY, STATE OF OKLAHOMA,
WITH FINDINGS OF FACT AND
CONCLUSIONS OF LAW
(JANUARY 25, 2021)
IN THE DISTRICT COURT OF IN AND FOR
CRAIG COUNTY, STATE OF OKLAHOMA
________________________
SHAWN LEE MCDANIEL,
Defendant-Appellant,
v.
THE STATE OF OKLAHOMA,
Plaintiff-Appellee.
________________________
OCCA Case No. F-2017-357
Muskogee County Case No. CF-2015-249
Before: Bret A. SMITH, District Judge.
ORDER
NOW on this 25th day of January, 2021, the above
styled matter comes on before the undersigned Judge
pursuant to an August 19, 2020 order from the
Oklahoma Court of Criminal Appeals remanding this
case for an evidentiary hearing. On September 29,
2020 an evidentiary hearing was held wherein the Sate
appeared through the Oklahoma Attorney General’s
Office by Randall Young and Julie Pittman and through

App.28a
the Muskogee County District Attorney’s Office by
Orvil Loge. Shawn Lee McDaniel appeared through
the Oklahoma Indigent Defense System by James
Lockard and Alex Richard and private counsel Roger
Hilfiger.1 Additionally, the Cherokee Nation appeared
as amici through Chrissi Nimmo. After considering
the argument of parties, reviewing the admitted
exhibits, and accepting the stipulations of the parties,
this court makes the following findings of fact:
FINDINGS OF FACT
1. The Indian status of Billy Fools, the Defendant/
Appellant’s victim is, by stipulation of the parties, 1/4
Cherokee blood. Further, Billy Fools was a registered
citizen of the Cherokee Nation at the time of the crime.
2. This Court finds, by stipulation of the parties,
that the Cherokee Nation is a federally recognized tribe.
3. This Court finds, by stipulation of the parties,
that the crime committed by Shawn Lee McDaniel
occurred at 25510 South 110th Street, in Porum,
Oklahoma.
4. This Court finds, by stipulation of the parties,
that 52210 South 110th Street, in Porum Oklahoma, is
within the geographic area set out in the Treaty of the
Cherokee, December 29, 1835, 7 Stat. 478, as modified
under the Treaty of July 19, 1866, 14 Stat. 799, and
as modified under the 1891 agreement ratified by Act
of March 3, 1893, 27 Stat. 612.

1 Mr. McDaniel was not present at the evidentiary hearing.

App.29a
Signed this 25th day of January, 2021.
/s/ Honorable Bret A. Smith
District Court Judge

App.30a

ORDER OF THE COURT OF CRIMINAL
APPEALS, STATE OF OKLAHOMA,
REMANDING FOR EVIDENTIARY HEARING
(AUGUST 19, 2020)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
SHAWN LEE MCDANIEL,
Appellant,
v.
THE STATE OF OKLAHOMA,
Appellee.
________________________
Case No. F-2017-357
Before: David B. LEWIS, Presiding Judge.,
Dana KUEHN, Vice President Judge.,
Gary L. LUMPKIN, Judge., Robert L. HUDSON,
Judge., Scott ROWLAND, Judge.
ORDER REMANDING FOR
EVIDENTIARY HEARING
Appellant Shawn Lee McDaniel appeals from his
conviction in Muskogee County District Court, Case
No. CF-2015-249, for Murder in the First Degree, in
violation of 21 O.S. Supp. 2012, § 701.7. The Honorable
Thomas A. Alford, District Judge, presided over

App.31a
McDaniel’s jury trial and sentenced him to life imprisonment. McDaniel must serve 85% of his sentence before
he is eligible for parole.
In Proposition 1 of his Brief-in-Chief and related
Application for Evidentiary Hearing filed on February
1, 2018, McDaniel claims that the District Court lacked
jurisdiction to try him. McDaniel argues that while he
is not Indian, his victim, Billy Fools, was a citizen of
the Cherokee Nation and the crime occurred within
the boundaries of the Cherokee Reservation. McDaniel,
in his direct appeal, relies upon jurisdictional issues
addressed in Murphy v. Royal, 875 F.3d 896 (10th Cir.
2017), which was affirmed by the United States
Supreme Court in Sharp v. Murphy, 591 U.S. ___, 140
S.Ct. 2412 (2020) for the reasons stated in McGirt v.
Oklahoma, 591 U.S. ___, 140 S.Ct. 2452 (2020).1
McDaniel’s claim raises two separate questions:
(a) the Indian status of his victim, Billy Fools, and (b)
whether the crime occurred in Indian Country. These
issues require fact-finding. We therefore REMAND
this case to the District Court of Muskogee County, for
an evidentiary hearing to be held within sixty (60)
days from the date of this Order.
Recognizing the historical and specialized nature
of this remand for evidentiary hearing, we request the
1 On March 25, 2019, we held McDaniel’s direct appeal in abeyance
pending the resolution of the litigation in Murphy. Following the
decision in McGirt, the State asked for additional time in which
to file a response to McDaniel’s jurisdictional claim. Additionally,
the Cherokee Nation filed an unopposed application for authorization to file amicus brief and tendered the same for filing. In light
of the present order, there is no need for an additional responses
at this time and these requests are DENIED.

App.32a
Attorney General and District Attorney work in coordination to effect uniformity and completeness in the
hearing process. Upon McDaniel’s presentation of prima
facie evidence as to the victim’s legal status as an
Indian and as to the location of the crime in Indian
Country, the burden shifts to the State to prove it has
subject matter jurisdiction.
The hearing shall be transcribed, and the court
reporter shall file an original and two (2) certified
copies of the transcript within twenty (20) days after
the hearing is completed. The District Court shall
then make written findings of fact and conclusions
of law, to be submitted to this Court within twenty
(20) days after the filing of the transcripts in the District Court. The District Court shall address only the
following issues:
First, his victim, Billy Fool’s, status as an Indian.
The District Court must determine whether (1) Billy
Fool has some Indian blood, and (2) was recognized as
an Indian by a tribe or the federal government.2
Second, whether the crime occurred in Indian
Country. The District Court is directed to follow the
analysis set out in McGirt, determining (1) whether
Congress established a reservation for the Cherokee
Nation, and (2) if so, whether Congress specifically
erased those boundaries and disestablished the reservation. In making this determination the District Court
should consider any evidence the parties provide,

2 See United States v. Diaz, 679 F.3d 1183, 1187 (10th Cir. 2012);
United States v. Prentiss, 273 F.3d 1277, 1280-81 (10th Cir.
2001). See generally Goforth v. State, 1982 OK CR 48, ¶ 6, 644
P.2d 114, 116.

App.33a
including but not limited to treaties, statutes, maps,
and/or testimony.
The District Court Clerk shall transmit the record
of the evidentiary hearing, the District Court’s findings of fact and conclusions of law, and any other
materials made a part of the record, to the Clerk of
this Court, and counsel for McDaniel, within five (5)
days after the District Court has filed its findings of
fact and conclusions of law. Upon receipt thereof, the
Clerk of this Court shall promptly deliver a copy of
that record to the Attorney General. A supplemental
brief, addressing only those issues pertinent to the
evidentiary hearing and limited to twenty (20) pages
in length, may be filed by either party within twenty
(20) days after the District Court’s written findings of
fact and conclusions of law are filed in this Court.
Provided however, in the event the parties agree
as to what the evidence will show with regard to the
questions presented, they may enter into a written
stipulation setting forth those facts upon which they
agree and which answer the questions presented and
provide the stipulation to the District Court. In this
event, no hearing on the questions presented is necessary. Transmission of the record regarding the matter,
the District Court’s findings of fact and conclusions of
law and supplemental briefing shall occur as set forth
above.
IT IS FURTHER ORDERED that the Clerk of
this Court shall transmit copies of the following, with
this Order, to the District Court of Muskogee County:
Appellant’s Brief-in-Chief and Application for Evidentiary Hearing filed on February 1, 2018; Appellee’s
Answer Brief filed on June 1, 2018; and Appellant’s
Reply Brief filed on June 21, 2018.

App.34a
IT IS SO ORDERED.
WITNESS OUR HANDS AND THE SEAL OF
THIS COURT this 19th day of August, 2020.
/s/ David B. Lewis
Presiding Judge
/s/ Dana Kuehn
Vice Presiding Judge
/s/ Gary L. Lumpkin
Judge
/s/ Robert L. Hudson
Judge
/s/ Scott Rowland
Judge
ATTEST:
/s/ John D. Hadden
Clerk

